<html>
<title> - HEARING TO REVIEW THE SMITH-LEVER ACT ON ITS 100TH ANNIVERSARY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
               HEARING TO REVIEW THE SMITH-LEVER ACT 
                      ON ITS 100TH ANNIVERSARY
=======================================================================


                                HEARING

                               BEFORE THE

                SUBCOMMITTEE ON HORTICULTURE, RESEARCH, 

                 BIOTECHNOLOGY, AND FOREIGNAGRICULTURE

                                 OF THE

                        COMMITTEE ON AGRICULTURE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 4, 2014

                               __________

                            Serial No. 113-9


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
87-047                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                        COMMITTEE ON AGRICULTURE

                   FRANK D. LUCAS, Oklahoma, Chairman

BOB GOODLATTE, Virginia,             COLLIN C. PETERSON, Minnesota, 
    Vice Chairman                    Ranking Minority Member
STEVE KING, Iowa                     MIKE McINTYRE, North Carolina
RANDY NEUGEBAUER, Texas              DAVID SCOTT, Georgia
MIKE ROGERS, Alabama                 JIM COSTA, California
K. MICHAEL CONAWAY, Texas            TIMOTHY J. WALZ, Minnesota
GLENN THOMPSON, Pennsylvania         KURT SCHRADER, Oregon
BOB GIBBS, Ohio                      MARCIA L. FUDGE, Ohio
AUSTIN SCOTT, Georgia                JAMES P. McGOVERN, Massachusetts
SCOTT R. TIPTON, Colorado            SUZAN K. DelBENE, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  GLORIA NEGRETE McLEOD, California
SCOTT DesJARLAIS, Tennessee          FILEMON VELA, Texas
CHRISTOPHER P. GIBSON, New York      MICHELLE LUJAN GRISHAM, New Mexico
VICKY HARTZLER, Missouri             ANN M. KUSTER, New Hampshire
REID J. RIBBLE, Wisconsin            RICHARD M. NOLAN, Minnesota
KRISTI L. NOEM, South Dakota         PETE P. GALLEGO, Texas
DAN BENISHEK, Michigan               WILLIAM L. ENYART, Illinois
JEFF DENHAM, California              JUAN VARGAS, California
STEPHEN LEE FINCHER, Tennessee       CHERI BUSTOS, Illinois
DOUG LaMALFA, California             SEAN PATRICK MALONEY, New York
RICHARD HUDSON, North Carolina       JOE COURTNEY, Connecticut
RODNEY DAVIS, Illinois               JOHN GARAMENDI, California
CHRIS COLLINS, New York
TED S. YOHO, Florida
VANCE M. McALLISTER, Louisiana

                                 ______

                      Nicole Scott, Staff Director

                     Kevin J. Kramp, Chief Counsel

                 Tamara Hinton, Communications Director

                Robert L. Larew, Minority Staff Director

                                 ______

  Subcommittee on Horticulture, Research, Biotechnology, and Foreign 
                              Agriculture

                    AUSTIN SCOTT, Georgia, Chairman

VICKY HARTZLER, Missouri             KURT SCHRADER, Oregon, Ranking 
JEFF DENHAM, California              Minority Member
STEPHEN LEE FINCHER, Tennessee       SUZAN K. DelBENE, Washington
DOUG LaMALFA, California             JIM COSTA, California
RODNEY DAVIS, Illinois               MARCIA L. FUDGE, Ohio
CHRIS COLLINS, New York              ANN M. KUSTER, New Hampshire
TED S. YOHO, Florida                 JUAN VARGAS, California
                                     SEAN PATRICK MALONEY, New York

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Peterson, Hon. Collin C., a Representative in Congress from 
  Minnesota, prepared statement..................................     3
Scott, Hon. Austin, a Representative in Congress from Georgia, 
  opening statement..............................................     1
Schrader, Hon. Kurt, a Representative in Congress from Oregon, 
  opening statement..............................................     3

                               Witnesses

Ramaswamy, Dr. Sonny, Director, National Institute of Food and 
  Agriculture, U.S. Department of Agriculture, Washington, D.C...     4
    Prepared statement...........................................     6
Hammock, Tess, Youth Trustee, National 4-H Council Board of 
  Trustees, Athens, GA...........................................     9
    Prepared statement...........................................    10
Reed, Ph.D., A. Scott, Vice Provost for University Outreach and 
  Engagement, Oregon State University; Director, OSU Extension 
  Service, Corvallis, OR.........................................    11
    Prepared statement...........................................    13
Lyons, Dr. L. Washington, Executive Administrator, Association of 
  Extension Administrators, Greensboro, NC; on behalf of Delbert 
  T. Foster, Acting Vice President, Land-Grant Services and 
  Executive Director, Research & Extension Programs, South 
  Carolina State University, Orangeburg, SC; on behalf of 
  Association of Extension Administrators........................    15
    Prepared statement...........................................    16

                          Submitted Materials

American Society for Horticultural Science, submitted statement..    33


     HEARING TO REVIEW THE SMITH-LEVER ACT ON ITS 100TH ANNIVERSARY

                              ----------                              


                         TUESDAY, MARCH 4, 2014

                  House of Representatives,
Subcommittee on Horticulture, Research, Biotechnology, and 
                                       Foreign Agriculture,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:05 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Austin 
Scott [Chairman of the Subcommittee] presiding.
    Members present: Representatives Scott, Davis, Collins, 
Yoho, Schrader, DelBene, Fudge, and Kuster.
    Staff present: DaNita Murray, John Goldberg, Mary Nowak, 
Tamara Hinton, Andy Baker, Anne Simmons, John Konya, Merrick 
Munday, and Riley Pagett.

  OPENING STATEMENT OF HON. AUSTIN SCOTT, A REPRESENTATIVE IN 
                     CONGRESS FROM GEORGIA

    The Chairman. Good morning. This hearing of the 
Subcommittee on Horticulture, Research, Biotechnology, and 
Foreign Agriculture to review the Smith-Lever Act on its 100th 
anniversary will come to order.
    In consultation with the Ranking Member, Dr. L. Washington 
Lyons, Executive Administrator for the Association of Extension 
Administrators, will be testifying in the place of Mr. Delbert 
T. Foster due to travel issues if there is no objection.
    Seeing no objection, today's hearing of the Subcommittee on 
Horticulture, Research, Biotechnology, and Foreign Agriculture 
will review the Smith-Lever Act of 1914 on its 100th 
anniversary. Thank you all for being here to discuss our 
nationwide Cooperative Extension Service. We are pleased to 
have before us several witnesses who are involved and 
experienced the benefits of the Extension Service.
    As we hear from our distinguished panel of witnesses today, 
we hope to gain an understanding of the role that our nation's 
land-grant colleges and universities continue to play in 
providing for the needs of the public through the resources and 
extension work established under the Smith-Lever Act. To better 
understand where we are, we have to understand where we have 
come from.
    A century ago, Congress created a nationwide Cooperative 
Extension Service through the Smith-Lever Act to address rural 
agricultural issues. It formally established the partnership 
between the agricultural colleges and universities and the 
United States Department of Agriculture to create a 
transformative education system. Specifically, the Act stated 
as its purpose: ``In order to aid in diffusing among the people 
of the United States useful and practical information on 
subjects relating to agriculture, uses of solar energy with 
respect to agriculture, home economics, and rural energy, and 
to encourage the application of the same, there may be 
continued or inaugurated in connection with the college of 
colleges in each State, Territory, or possession . . .'' At 
that time, more than 50 percent of the United States population 
lived in rural areas, and 30 percent of the workforce was 
engaged in farming.
    Through the establishment of the National Cooperative 
Extensive Service, the Smith-Lever Act helped to create a 
partnership between land-grant colleges who are conducting 
research and the farmer who could use the information to 
improve his farming systems, thereby improving the lives and 
leading the nation into an agricultural revolution. For 
example, in 1945, it took 14 labor hours to produce 100 bushels 
of corn on 2 acres of land. Today you can produce 100 bushels 
of corn on less than an acre.
    Over time the Extension Service has adapted but continues 
to address a wide range of human plant and animal needs in both 
urban and rural areas. Today's extension educational offerings 
are in the areas of 4-H youth development, agriculture, 
leadership development, national resources, family and consumer 
sciences, and community and economic development.
    Before us today is a panel that will provide their unique 
perspective from many of the various components of our 
country's Extension Services. We are honored to be joined by 
Mr. Delbert Foster, Acting Vice President for the Division of 
Land-Grant Services, directly involved in outreach and 
engagement to the citizens of South Carolina on behalf of South 
Carolina State University. Mr. Foster also represents the 
critical contribution of the 1890 land-grant community to the 
overall extension mission.
    We are also joined by Dr. Sonny Ramaswamy, Director of the 
USDA's National Institute of Food and Agriculture, who oversees 
NIFA awards, funds for a wide range of extramural research, 
education extension projects and addresses the needs of 
farmers, ranchers and agricultural producers.
    Dr. Scott Reed, Vice Provost for University Outreach and 
Engagement at Oregon State University also joins us to discuss 
his involvement with a growing number of educational programs 
within the OSU Extension Service, which enhances the economic, 
environmental and social welfare of society.
    Finally, I am pleased to welcome Tess Hammock, a sophomore 
at the University of Georgia--go Dogs--to share her experience 
and insight as a member of the Youth Council for the 4-H 
National Board of Trustees.
    We appreciate the time each of you has given to prepare for 
this hearing. Your testimony will be important to evaluate the 
current state of the Cooperative Extension Service and ensure a 
successful model of cooperative extension education for years 
to come.
    Thank you, and now I would like to recognize my friend and 
colleague from Oregon, Ranking Minority Member, Mr. Kurt 
Schrader, for any opening remarks he may have.

 OPENING STATEMENT OF HON. KURT SCHRADER, A REPRESENTATIVE IN 
                      CONGRESS FROM OREGON

    Mr. Schrader. Well, thank you, Mr. Chairman. I appreciate 
having this hearing today. Now that we are past the farm bill, 
which I enjoyed working with you on a lot and was a pretty 
decent piece of legislation, it is time to get back to meat-
potatoes-type issues, things that make a difference on the 
ground every day in our districts. Smith-Lever allows us to do 
that. It really does allow us to do that.
    I would like to welcome the witnesses also. Thank you for 
making the trek, especially in this weather. Good to have you 
all here, and two good friends of mine from back in my Oregon 
State legislative days. Scott, it is really good to see you 
guys here. I appreciate you coming out and being able to tell 
the story that's been so successful for us back home.
    I think as we approach this 100th anniversary that 
authorized the cooperative extension programs, I think that is 
a big point. These are public-private partnerships that allow 
us to leverage taxpayer dollars to help us feed the world, and 
in this day and era, even though the urban population has 
increased and some of our rural population has decreased, it is 
important or maybe even more important for Extension to be out 
there because we are feeding a lot more people now that don't 
raise their food, and Extension talks about that.
    Personally, I am a huge fan. I farmed for over 20 years. 
Oregon State University's Extension Service was critical to my 
early success as a strawberry grower trying to find out the 
right varieties and ways to go out about the cultivation. We 
actually have a huge master gardener following in our State of 
Oregon. A lot of urban counterparts are very excited about 
those opportunities, and it makes a nice symbiotic relationship 
and I think Smith-Lever has that ability that we have seen over 
the last 100 years to be relevant not just to rural America but 
urban America also.
    And a case in point about how critical Extension is was the 
outbreak of the Drosophila suzukii issue with the stone fruit 
back in 2010. I was able to get the then-Chairman of the 
Committee to come to Oregon. We convinced him of the work that 
Oregon State could do. We were able to get a grant and stop a 
huge, huge pest from devastating some of America's agriculture 
that again helps feed the rest of the world.
    So I am very excited about the opportunity here. I think it 
is going to be a great hearing, hopefully a great recognition 
of the work that is done and I look forward to hearing from the 
witnesses today, and again, thank you very much, Mr. Chairman.
    The Chairman. Thank you, Mr. Schrader, and the chair would 
request that other Members submit their opening statements for 
the record so the witnesses may begin their testimony and to 
ensure that there is ample time for questions.
    [The prepared statement of Mr. Peterson follows:]

  Prepared Statement of Hon. Collin C. Peterson, a Representative in 
                        Congress from Minnesota
    Good morning. Thank you Chairman Scott and Ranking Member Schrader 
for holding today's hearing on the 100th Anniversary of the Smith-Lever 
Act. And thank you to today's witnesses for braving this Minnesota-like 
weather to join us today.
    One hundred years after it became law, the Smith-Lever Act 
continues to play an important role in rural communities across the 
country. With the 2014 Farm Bill now being implemented, the work of 
Extension economists and crop and livestock specialists at land-grant 
universities is perhaps more important than ever. These folks do an 
excellent job in spite some of the tough budget challenges they've 
recently had to endure.
    The Smith-Lever Act also formalized 4-H Clubs to carry out the 
Cooperative Extension System's nationwide youth development program. 
Like many of us on this Committee, I was active in 4-H and they 
continue to do great work. Looking ahead, I hope that we can work with 
4-H and Extension Service along with local companies and technical 
colleges, in addition to the land-grant universities, to help supply 
workers in rural areas with the skills needed for off farm job 
opportunities.
    I'm also proud to be an original cosponsor of a Congressional 
Resolution commemorating the 100th anniversary of the Smith-Lever Act 
and I look forward to its consideration by the full House.
    So, thank you again, Mr. Scott, for today's hearing on this 
important issue. I look forward to hearing from our witnesses.

    The Chairman. For the panel, I would like to welcome our 
panel of witnesses to the table: Dr. Sonny Ramaswamy, Director, 
National Institute of Food and Agriculture, U.S. Department of 
Agriculture, Washington, D.C.; Ms. Tess Hammock, National 4-H 
Council Board of Trustees, Youth Trustee, University of 
Georgia, Athens, Georgia; Dr. Scott Reed, Vice Provost, 
University Outreach and Engagement and Director, Oregon State 
University Extension Service from Corvallis, Oregon, and Dr. 
Washington Lyons, Executive Administrator for the Association 
of Extension Administrators, North Carolina A&T University.
    Dr. Ramaswamy, please begin when you are ready.

          STATEMENT OF DR. SONNY RAMASWAMY, DIRECTOR,
        NATIONAL INSTITUTE OF FOOD AND AGRICULTURE, U.S.
          DEPARTMENT OF AGRICULTURE, WASHINGTON, D.C.

    Dr. Ramaswamy. Good morning, Mr. Chairman and Members of 
the Subcommittee. I really appreciate the opportunity to talk 
about something that is like talking to my own family here 
about this incredible enterprise that we have in the United 
States called Cooperative Extension Service.
    As you noted, Mr. Chairman and Congressman Schrader, it is 
the 100th anniversary of this enterprise, and I would like to 
share with you a little bit of my thoughts and particularly 
share with you also where we want to go as we go forward 
looking at the future as well.
    As you noted, the Smith-Lever Act was passed in 1914 and 
has been around for 100 years, and in my mind truly the global 
preeminence of America in general and particularly about the 
food and agriculture enterprise in large measure is 
attributable to that Cooperative Extension Service. Mr. 
Chairman, as you noted, the ability to grow food compared with 
what we are able to do 40 years ago, 50 years ago, 100 years 
ago with fewer people on smaller acreages of land is an 
incredible testimony to the kind of work that Extension has 
done.
    So Cooperative Extension Service itself, it is a three-way 
partnership. It is a partnership with the Federal Government 
and the state government and the local government, so funding 
is provided by all three entities. The funding from the Federal 
Government is provided by the National Institute of Food and 
Agriculture on behalf of the U.S. Government, the United States 
Department of Agriculture.
    Now, I could go on and on and wax eloquent about thousands 
of stories and in fact, you have both shared some stories 
already, but what I would like to do is just take a couple of 
examples and speak to the amazing things that happened in 
Cooperative Extension Service and in large measure is 
responsible for the strength that we have as a nation as well 
as global preeminence. I will keep referring to that as I make 
my comments here as well.
    Now, in terms of technical education to growers and land 
managers, this is an agricultural and natural resources area 
that Extension provides support in. Whether it is a backyard 
gardener or a farmer that farms maybe 1,000 acres of cotton or 
peanuts or a large rancher with thousands of acres of ranches 
in Oregon or other parts of our nation, these folks, they get 
their knowledge, their information from those local boots on 
the ground, our local boots on the ground of the Cooperative 
Extension Service, I will refer to as educators, county 
Extension agents as faculty. Depending on the state we are in, 
each one of them is called differently but all these folks, 
they get their knowledge from the boots on the ground, these 
local extension educators that we have. Or they might crowd-
source the best knowledge from a whole community of practice 
that is part of what we referred to today as eXtension, this 
online community of practice that we have. Literally you can 
bring together a problem with horses or organic production 
systems or Drosophila suzukii, the insect that Congressman 
Schrader referred to. You can bring in the best breeds together 
as part of the community of practice to be able to address 
that, so that is the breadth of efforts that are contributed to 
by our Extension personnel across America.
    I want to share with you a couple of examples from the 
State of California and from the State of Georgia as well in 
this ag and natural resources world. As you know, droughts have 
been afflicting our nation pretty much west of the Mississippi 
and particularly California and the West Coast. They epitomize 
the situation that we have, and our Extension personnel at the 
University of California System has undertaken applied research 
and extension efforts in coming up with more efficient 
irrigation systems. They have created an app, for example, for 
smart phones and tablets where the local producers working with 
water conservation districts and others can go ahead and bank 
the water in the wintertime when you have excess water and 
runoff and things like that, and then deploy that water that 
has been banked in the summertime when you need the water for 
the crops to be grown, two quick, simple examples of the kind 
of work that is being done, and I can, as I said, go on and on 
about other states as well.
    Another area, for example, Georgia itself, one of the 
examples that I would like to share with you, and I know 
Congressman Scott knows this particular example is the 
blueberry industry in that state. It went in a matter of about 
10 years with the help of Georgia researchers, University of 
Georgia researchers and Cooperative Extension Service, has gone 
from a farm-gate value of about $20 million to about $150 
million in a matter of 10 years. This has come about because of 
the wonderful work done by the researchers at developing new 
varieties. There is a particular variety called Titan, and this 
variety, the blueberries, if you can believe this, they are as 
big as a quarter. The diameter of the blueberry is as big as a 
quarter, and I have the privilege of tasting them as well. They 
are fantastic-tasting as well. So it gives you the idea of 
things that are going on.
    In the realm of family and consumer education, EFNEP is a 
program that works particularly with limited-resource families. 
Research recently has demonstrated that it has reduced health 
care costs, reduced absenteeism, reduced dependence on 
emergency food assistance as well.
    In the realm of community development, in the State of 
Oregon, for example, we have a program, Extension runs a 
program called Recipe to Market, and that one works with 
entrepreneur, people wanting to be entrepreneurs and offering 
them a boot camp where they are learning about business plans, 
what kind of products to take to market, et cetera, and a 
consequence of that is, three individuals have a company that 
produces several million dollars' worth of economic activity as 
well, and that produces jobs and contributes to a number of 
jobs that are being created.
    In terms of youth development, Tess Hammock is going to 
testify about 4-H, and she really to me epitomizes the amazing 
things that are going on with our youth. We have seven million 
children in America that are part of 4-H, and in large measure 
the success is because of the volunteers. We have about a half 
a million volunteers that work with 4-H as well.
    [The prepared statement of Dr. Ramaswamy follows:]

Prepared Statement of Dr. Sonny Ramaswamy, Director, National Institute 
 of Food and Agriculture, U.S. Department of Agriculture, Washington, 
                                  D.C.
    Mr. Chairman and Members of the Subcommittee, I am pleased to have 
this opportunity to discuss the role and relevance of the Cooperative 
Extension System.
    As we mark the 100th anniversary of the Smith-Lever Act of 1914, 
which established our nation's Cooperative Extension System, I believe 
that Extension is well-positioned to build on the successes of its 
first 100 years.
    The Cooperative Extension System is funded through a partnership 
between the United States Department of Agriculture's (USDA) National 
Institute of Food and Agriculture (NIFA), state land-grant 
universities, and local governments. Extension deploys science-based 
solutions to address problems in food, agriculture, natural resources, 
family and consumer sciences, youth development, and community economic 
development.
    Today, I would like to use a few examples to highlight how 
Extension helps American agriculture, consumers, youth, and communities 
succeed and strengthen our nation.
Technical Education to Growers and Land Managers
    Whether it is a backyard gardener or a farmer, rancher, or forester 
managing thousands of acres seeking information to address their 
particular problem, they can rely on unbiased, science-based technical 
information available from their local Extension agent. Or they can 
crowd-source knowledge via eXtension, the Extension system's national 
online interactive learning environment.
    I'll cite two particularly compelling examples from California and 
Georgia, where technical information from Extension is making a 
difference.
    In California, afflicted by the recent, severe droughts, Extension 
personnel are providing science-based information to help growers and 
other residents use their water resources more efficiently and 
effectively. With funding from NIFA, University of California 
Cooperative Extension refined conservation tillage practices to reduce 
water use on field crops through lower evaporation and higher 
irrigation efficiencies. At the same time, these practices have 
contributed to reduced production costs while maintaining or increasing 
yields. Similarly, with funding from NIFA's Specialty Crop Research 
Initiative program, University of California Cooperative Extension 
personnel are testing new varieties of crops for salinity tolerance. 
This is especially helpful as we look to increase our use of reclaimed 
and recycled water. Finally, using a combination of NIFA, state, and 
local funding, in cooperation with USDA's Natural Resources 
Conservation Service, University of California Cooperative Extension 
specialists have created a soil-based ``app'' for smart phones and 
tablets. This app can help users in California locate optimal locations 
for ``groundwater banking'' in times of excess water supply, thus 
making that water available in times of drought. The app can also be 
used to optimize irrigation of agricultural crops. This saves water 
while maintaining agricultural productivity.
    The Georgia Blueberry industry has undergone explosive growth in 
recent years--in just over a decade, farm-gate value of blueberries in 
the state has increased from $22 million in 2000 to more than $150 
million in 2012. Research and Extension at the University of Georgia--
funded by NIFA--has been a significant contributor to the growth of 
this cash crop. As University of Georgia researchers developed new 
cultivars, new pest management and harvest techniques, and ways to add 
value to grower marketing, Georgia Cooperative Extension helped growers 
turn those advancements into profits. Researchers have developed 
varieties that ripen quicker, get bigger, and are more marketable. One 
blueberry variety developed by the University of Georgia, Titan, when 
grown under suitable conditions can often grow to exceed the size of a 
quarter! Another recently developed University of Georgia variety, 
Early Dawn, offers the earliest maturing blueberry variety for 
commercial growers in South Georgia. Cooperative Extension funding has 
helped to demonstrate the advantages of these varieties and to provide 
other science-based information to growers, guiding them through 
variety selection and dozens of other grower decisions that represent 
the difference between a farm profit and loss.
Consumer and Family Education
    In addition to producers, Cooperative Extension educates consumers, 
families, and communities. For example, NIFA's Expanded Food and 
Nutrition Education Program (EFNEP) currently operates in all 50 states 
and in American Samoa, Guam, Micronesia, Northern Mariana Islands, 
Puerto Rico, and the Virgin Islands. Across the nation, EFNEP reached 
130,485 adults and 479,398 youth directly and nearly 400,000 family 
members indirectly in FY 2012. Obesity, poor health, and limited 
physical activity are major health concerns for many, and particularly 
so for limited resource families. EFNEP has improved the health and 
well-being of limited resource families and youth through better 
knowledge, skills, attitudes, and changed behavior regarding 
nutritionally sound diets. Additionally, EFNEP programs are 
contributing to public savings; for example, research shows that better 
health is associated with reduced health care costs, reduced 
absenteeism from work, and reduced dependence on emergency food 
assistance.
Community Economic Development
    Prosperity and economic security for individuals and families, 
farmers and ranchers, entrepreneurs, and consumers across the country 
are key to a strong economy. NIFA funding and program leadership 
provide for Cooperative Extension activities that enable Americans to 
make sound financial management decisions, discover new economic 
opportunities, develop successful agricultural and nonagricultural 
enterprises, and take advantage of new and consumer-driven markets.
    For example, Cooperative Extension helped Oregonians launch new 
food businesses through a program called Recipe to Market. This program 
helps local entrepreneurs become marketable to well-established 
companies. Throughout the 4 month Recipe to Market program, each 
participant builds a business plan, helps design a marketing campaign, 
and works one-on-one with local coaches to turn their dream into a 
profitable local business. In one rural, isolated coastal community, 
seven participants completed the first offering of Recipe to Market, 
which enabled them to launch three new businesses. These three 
businesses now generate almost $1.2 million in combined annual gross 
income and provide employment for up to a dozen employees. The governor 
of Oregon has likened creation of such economic opportunity in rural 
communities to be equivalent to creating hundreds of jobs in 
metropolitan areas such as Portland.
    A team of researchers and Extension specialists led by Cornell 
University is working to develop and test broccoli cultivars suited to 
the climate and soils from Maine to Florida and westward into Ohio and 
Tennessee. Estimates indicate that Eastern broccoli production will 
result in a 66 percent reduction in fuel used to transport the crop to 
market. This will save close to 2.3 million gallons of fuel per year 
and reduce carbon dioxide emissions by more than 51 million pounds 
annually. The team expects that growers in the region will see 
increased profits of $3,000 per acre per year, which translates to 
increased profits of $40 million. The total annual economic impact on 
rural economies will be almost $90 million.
The Nation's Largest Youth Development and Empowerment Organization, 4-
        H
    The Cooperative Extension based organization reaches more than 
seven million 4-H youth in urban neighborhoods, suburban schoolyards, 
and rural farming communities. Supported by university-backed 
curricula, 4-H'ers engage in hands-on learning activities in the areas 
of science, healthy living, and food security. These future leaders are 
developing intellectual curiosity along with skills in math, science, 
and technology, as a result of hands-on learning in 4-H programs 
developed by our nation's land-grant universities. While Cooperative 
Extension professionals oversee the 4-H programs, it is local community 
volunteerism that really contributes to the success of the program. 
More than 500,000 4-H volunteers are helping to create life-changing 
experiences for young people in every county and community--all 50 
states, U.S. territories and on military installations worldwide. In 4-
H, farm kids, city kids, and kids of every race, economic, and family 
situation are acquiring the skills that will help them become the 
capable future workforce our nation needs. They're also developing the 
social values that lead to better futures. Research has demonstrated 
that compared with youth not involved in 4-H programs, 4-H'ers are 
twice as likely to go to college, twice as likely to pursue careers in 
science, and three times as likely to give back to their communities. 
More than 60 million of our nation's most successful statesmen, 
business leaders, scientists, and academics credit 4-H with setting 
them on a positive, productive path. This includes current Members of 
the United States Congress!
Resources
    Historically, the two main sources of Federal funds that provide 
broad support for the Cooperative Extension System are from two line 
items in the NIFA budget: Smith-Lever 3 (b&c) and 1890s Extension. 
These Federal funds are matched by state and county funds. During the 
last several years, Cooperative Extension efforts across our nation 
have been strengthened with locally leveraged private funding sources, 
including fees. Additionally, NIFA has worked to integrate Extension 
directly into research projects that seamlessly deliver results to end-
users. NIFA's largest competitive grants program, the Agricultural and 
Food Research Initiative (AFRI), is one such program that funds 
integrated research, education, and Extension activities that provide 
science-based solutions to address major agricultural challenges of 
national, regional, and multi-state importance. For instance, last 
week, Secretary Vilsack announced a new, 5 year, $30 million water 
grants initiative through the AFRI program that will provide America's 
farmers and ranchers solutions to serious agricultural water challenges 
and improve the quality and quantity of our water resources.
The Future
    I believe America's global preeminence in the food and agricultural 
enterprise is attributable in large measure to the effectiveness of the 
Extension system, which translates discoveries into solutions to 
address problems faced by end-users. This system, unparalleled and the 
envy of the world, is emulated by many; even today, many from around 
the world come to America to learn about Extension.
    In recent years, some have questioned--in the age of Google and 
Wikipedia--the need for this public enterprise called Cooperative 
Extension. However, Extension, with its service to every one of the 
3,100+ counties, parishes, and boroughs of our nation, has demonstrated 
over the last 100 years its ability to morph itself to provide 
evidence-based, third party validated, unbiased information in 
addressing problems faced by generations of the public. The challenges 
our nation and the world face in the context of the burgeoning 
population--from meeting food security to dealing with droughts and 
other environmental constraints, public health issues, youth, family, 
and community well-being, and economic well-being--our nation's 
Cooperative Extension System is ready and available to address the same 
and to help America continue to maintain its global preeminence over 
the next 100 years.
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to speak about Cooperative Extension in the United States. 
I look forward to working with you and the others around our nation to 
continue to protect the interests of farmers, ranchers, consumers, 
youth, and communities across America through a vital and effective 
Cooperative Extension System.

    The Chairman. Thank you, Doctor.
    Dr. Ramaswamy. Thank you very much for that opportunity, 
Congressman Scott.
    The Chairman. Ms. Hammock.

STATEMENT OF TESS HAMMOCK, YOUTH TRUSTEE, NATIONAL 4-H COUNCIL 
                 BOARD OF TRUSTEES, ATHENS, GA

    Ms. Hammock. Good morning, Mr. Chairman, Members of the 
Committee, thank you so much for inviting me to be here today 
to testify on the importance of the Smith-Lever Act, coauthored 
a century ago by a fellow Georgian, the late Senator Hoke 
Smith.
    It is an honor for me to share my story this morning, and 
to tell you how the Smith-Lever Act and one of the world's most 
innovative educational ideas ever--the Cooperative Extension 
System of our nation's land-grant universities--has helped to 
shape my life and the person I am today.
    As a young woman growing up in Georgia, I had access to a 
life-changing experience called 4-H, the youth development 
program of Cooperative Extension, the largest and one of the 
most effective youth programs in America. For more than 100 
years, 4-H has stood behind the idea that young people are the 
single greatest resource we have to create a better world.
    I am deeply grateful for the leadership skills I acquired 
in 4-H and the amazing adults who believed in me, including my 
county Extension agent and state program leaders. Without them, 
my life would have been very different.
    Two questions that I want to answer for you today are: how 
did 4-H enhance my leadership abilities and skills and how am I 
putting those skills into practice today?
    4-H taught me that being a leader begins with confidence, 
and there were three things that helped me develop confidence, 
and that was participating in public speaking competitions, 
serving as a state officer, and performing with the musical 
group Clovers and Company. 4-H gave me the opportunity to 
discover for myself what my gifts and talents are. Moreover, it 
gave me the tools, the opportunities and the platform to master 
and then to demonstrate those skills, just like today.
    My passion is public speaking, and for millions of others 
in 4-H, it might be creating an enterprise garden in a food 
desert, cultivating a peer intervention program or designing a 
smarter robot. Whatever it is, 4-H'ers, in partnership with 
caring adults, are becoming confident, capable young men and 
women with purpose, changing and leading the world today and 
into the future.
    There is proof that 4-H works also. According to a decade-
long research study completed by researchers at Tufts 
University, 4-H'ers excel beyond their peers. They are nearly 
four times more likely to contribute to their communities. 4-
H'ers are two times more likely to be civically active, make 
healthier choices and participate in science programs during 
out-of-school time. In addition, they are tackling issues that 
matter most in the areas of science--healthy living and food 
security--an issue that is important to me and is the reason I 
am pursuing my undergraduate degree in agricultural 
communications at the University of Georgia. Go Dogs.
    Agriculture touches every person on the planet, every day. 
It has been part of our story since the beginning of time and 
it is vital to our very existence. Agriculture has an important 
story to tell and I want to be one of the voices telling that 
story.
    One in seven people in the world go to bed hungry every 
night. Food production must double by the year 2050 to meet the 
demands of our world's population growth. No one knows where 
the food, water or energy will come from but we do know that 
the farmer who will feed the world in 2050 is 13 years old 
today. This is just one example of why an investment in young 
people is the most important investment you can make.
    These experiences I have shared with you today have brought 
me to this place and made me who I am. Because others have 
invested in me, I have a responsibility to make a difference in 
this world, a responsibility that I am well prepared for, 
thanks to my family, my faith and to 4-H.
    There are more than 20 million 4-H alumni in this country, 
many right here in the halls of Congress, who are leading our 
communities and our country in remarkable ways.
    As a Youth Trustee of the Board of National 4-H Council, I 
am passionate about empowering youth to serve their communities 
and to make a positive difference in their own lives and those 
of others. Our pledge at National 4-H Council is to increase 
access to the 4-H experience for millions more young people 
throughout the United States no matter where they live--on a 
farm, in an urban food desert, on a U.S. military base, or a 
tight-knit small town like Forsyth, Georgia where I grew up.
    As we begin a second century of service, our mission is to 
share the incredible story of Cooperative Extension, the power 
of the 4-H program to change lives and save lives, and to 
highlight the urgent need for all of us to invest in young 
people.
    Thank you, Mr. Chairman and Members of the Committee, for 
your support and the opportunity to tell my 4-H story.
    [The prepared statement of Ms. Hammock follows:]

Prepared Statement of Tess Hammock, Youth Trustee, National 4-H Council 
                     Board of Trustees, Athens, GA
    Mr. Chairman, Members of the Committee, thank you for inviting me 
to be here today, to testify on the importance of the Smith-Lever Act, 
co-authored a century ago by a fellow Georgian, the late Senator Hoke 
Smith.
    It is an honor for me to share my story. And to tell you how the 
Smith-Lever Act and one of the world's most innovative educational 
ideas ever--the Cooperative Extension System of our nation's land-grant 
universities--has helped to shape my life and the person I am today.
    As a young woman growing up in Georgia, I had access to a life-
changing experience called 4-H--the youth development program of 
Cooperative Extension, the largest and one of the most effective youth 
programs in America.
    For more than 100 years, 4-H has stood behind the idea that young 
people are the single greatest resource we have to create a better 
world.
    I am deeply grateful for the leadership skills I acquired in 4-H 
and the amazing adults who believed in me, including my county 
extension agent and state program leaders. Without them, my life would 
have been very different.
    Across our nation, there are thousands of professional Extension 
educators, who along with \1/2\ million volunteers and mentors, make 
great things happen for more than six million young people each and 
every day.
    Two questions that I want to answer for you today are--``How did 4-
H enhance my leadership skills and how am I putting those skills into 
practice?''
    4-H taught me that being a leader begins with confidence. There 
were three things that helped me develop confidence--participating in a 
public speaking competition, serving as a state officer, and performing 
with the musical group Clovers and Company. 4-H gave me the opportunity 
to discover for myself what my gifts and talents are. Moreover, it gave 
me the tools, the opportunities and the platform to master--and to 
demonstrate--those skills.
    My passion is public speaking. For millions of others in 4-H, it 
might be creating an enterprise garden in a food desert, cultivating a 
peer intervention program or designing a smarter robot. Whatever it is, 
4-H'ers, in partnership with caring adults, are becoming confident, 
capable young men and women with purpose--changing and leading the 
world today and into the future.
    There's proof that 4-H works. According to a decade-long research 
study completed by researchers at Tufts University, 4-H'ers excel 
beyond their peers.
    They are nearly four times more likely to contribute to their 
communities.
    4-H'ers are two times more likely to be civically active, make 
healthier choices and participate in science programs during out-of-
school time.
    In addition, they are tackling issues that matter most in the areas 
of science, healthy living and food security--an issue that is 
important to me and is the reason I am pursuing my undergraduate degree 
in agricultural communications at the University of Georgia.
    Agriculture touches every person on the planet, every day. It has 
been part of our story since the beginning of time and it is vital to 
our very existence. Agriculture has an important story to tell and I 
want to be one of the voices telling that story.
    One in seven people in the world go to bed hungry every night. Food 
production must double by the year 2050 to meet the demands of our 
world's population growth. No one knows where the food, water or energy 
will come from. But we do know that the farmer who will feed the world 
in 2050 is 13 years old today. This is just one example of why an 
investment in young people is the most important investment you can 
make.
    The experiences I've shared with you today have brought me to this 
place and made me who I am. Because others have invested in me, I have 
a responsibility to make a difference in this world, a responsibility 
that I am well prepared for, thanks to my family, my faith and 4-H.
    There's another number I want to share with you. There are more 
than 20 million 4-H alumni in this country--many right here in the 
Halls of Congress--who are leading our communities and our country in 
remarkable ways.
    As a Youth Trustee of the Board of National 4-H Council, I am 
passionate about empowering youth to serve their communities and make a 
positive difference in their own lives and those of others.
    Our pledge at National 4-H Council is to increase access to the 4-H 
experience for millions more young people throughout the United States 
no matter where they live--on a farm, in an urban food desert, on a 
U.S. military base, or a tight knit small town like Forsyth, Georgia 
where I grew up.
    As we begin a second century of service, our mission is to share 
the incredible story of Cooperative Extension, the power of the 4-H 
program to change lives and save lives, and to highlight the urgent 
need for all of us to invest in young people.
    Thank you for your support and the opportunity to share my 4-H 
story.

    The Chairman. Thank you, Ms. Hammock.
    Dr. Reed.

STATEMENT OF A. SCOTT REED, Ph.D., VICE PROVOST FOR UNIVERSITY 
OUTREACH AND ENGAGEMENT, OREGON STATE UNIVERSITY; DIRECTOR, OSU 
                       EXTENSION SERVICE,
                         CORVALLIS, OR

    Dr. Reed. Chairman Scott, Members of the Subcommittee, it 
is my privilege to be representative of Extension leaders 
across the 106-member land-grant system, and as I begin, I 
would like to offer my thanks for your having moved Concurrent 
Resolution 86 that honors and inspires those who have spent 
their careers working as public servants on behalf of the 
Cooperative Extension Service.
    Two months from now, we will recognize the signing of this 
historic 1914 Act that created a funding mechanism and a system 
unlike any other in our country. I would like to describe the 
Federal dollars as the hardest working. They are the first ones 
in the door that cause states and counties to make 
contributions to the same powerful system. This relationship 
connects knowledge resources to issues. It is driven by 
national objectives but it is customized to meet local and 
state needs.
    My own career is an example. I began working in the private 
sector in a pulp and paper company in northern Minnesota. I was 
running a small research department, and in that capacity, I 
was more of a problem solver. I had more problems than I could 
solve. To my aid came the land-grant university Extension 
Service that provided me with intellectual depth, research 
design, access to graduate students, all things I did not have. 
I provided access to land and researchable problems. Together 
we worked with the local county Extension office and developed 
an applied learning laboratory and did things together that 
neither of us could have done separately.
    I am sure that back in your own states, you no doubt see 
the effects of Extension work all around you. While it is true 
that we count and report to you things like people reached, 
acres impacted and dollars saved or earned, we do all that, but 
the real durable effects of Extension work is on public value 
that manifests as healthy people, a healthy planet and healthy 
economies.
    So what are some of the innovations that you might be 
seeing? In my home State of Oregon, the Extension Service 
brings together vineyard managers, winemakers and students in 
shared learning environments, a recent innovation. We bring 
those audiences together both in-person and online that helps 
to advance the dramatic growth in this agricultural sector. The 
result: wine grapes have catapulted to the 17th most important 
crop of more than 200 commodities in Oregon.
    In Minnesota, concerns over the influence of climate change 
and weather patterns are driving Extension to develop and 
implement adaptation strategies. Community by community in 
Minnesota, Extension helps growers make plant selection 
decisions, how to deal with invasive pests, manage extreme 
variations in rainfall, and choose levels of crop insurance.
    In Georgia, rising energy costs have made energy efficiency 
a high priority on farms, yet many farmers have trouble 
financing these kind of improvements. Energy assessments across 
47 farms in Georgia provided by Extension assisted in $3.6 
million in grant requested renovations and projected annual 
savings of more than $10,000 per farm.
    And finally, in Oklahoma, development of best management 
practices regarding the intersection of cattle grazing and 
wheat production created decisions models and Extension 
education about their application that translated to $285 
million of savings from reducing lost production to wheat.
    While it is true we have been teaching for the last 100 
years, we have also learned and adapted our strategies for the 
21st century. Today's issues are complex, and there are few 
simple answers anymore. Beyond simply sharing, we bring 
knowledge to the table developed by our research community that 
is stimulated by the work of this Subcommittee and then we 
partner with communities of place, communities of interest, 
communities of practice to adapt and share practices that are 
implemented across the landscapes. We are moving beyond simple 
outreach to what we call engagement. Outreach, we like to say, 
begins with an answer; engagement ends with one.
    Our local presence allows for personal relationships and 
face-to-face education but Extension also thrives in the Web-
based and socially networking world anywhere, anytime, any 
format defines our national network. As an illustration, this 
month we will answer 5,000 questions through the electronic Ask 
an Expert System, part of the eXtension program that is funded 
through a Congressional line that is called New Technologies in 
Agriculture. With leadership of visionary policymakers and 
annual appropriations of about $300 million of capacity funds 
through the Smith-Lever Act, which I will point out is less 
than $1 per American, we keep a local office open in more than 
3,000 United States counties. We enroll seven million youth in 
the legendary 4-H program. We advance nutritional support to 
limited-resource families, and we focus on rapid response 
through Extension's Disaster Education Network, among other 
priorities.
    Finally, while recognizing 100 years of Smith-Lever is 
important, this isn't about looking in the rear-view mirror. 
More critical is the windshield view of our adaptation to new 
issues, new audiences, new approaches. In the next 100 years, 
we will continue translating science for practical 
applications, we will engage learners to co-develop solutions, 
we will transform individuals, families, communities and 
businesses in both rural and urban environments. That is the 
work of Cooperative Extension.
    [The prepared statement of Dr. Reed follows:]

Prepared Statement of A. Scott Reed, Ph.D., Vice Provost for University 
    Outreach and Engagement, Oregon State University; Director, OSU
                    Extension Service, Corvallis, OR
Why Cooperative Extension?--Extending Knowledge, Changing Lives
    Mr. Chairman and Members of the Subcommittee, I am Scott Reed. My 
role at Oregon State University is to serve as vice provost for 
university outreach and engagement and director of the Oregon Extension 
Service. I am an example of many others who lead such programs at the 
nation's 106 land-grant universities as part of the Cooperative 
Extension System.
    Two months from now, we will celebrate the May 8, 1914 signing of 
the Smith-Lever Act that put into place a funding mechanism unlike any 
other. Federal dollars that flow to Extension services lever additional 
appropriations from state and county governments and create a 
tripartite partnership that connects knowledge resources to issues and 
opportunities. This distinctive network identifies priorities through 
systematic assessments that, while driven by national priorities, 
customize responses to meet state and local needs.
    My own career in Extension is an example. While working in the 
private sector, I was responsible for a small research department in a 
forest products company in northern Minnesota. In that setting, my job 
was a problem solver for our land managers--and I had more problems 
than I could effectively manage. To my aid came the land-grant 
university Extension Service that provided intellectual depth, research 
design support, and access to expanded knowledge, and graduate student 
support--all things I would not have on my own. My role was to provide 
access to land and problems that the local Extension Service used as an 
applied learning laboratory. Through this type of engagement, we 
accomplished things that neither of us could do separately. Working 
partnerships like this illustrate a key feature of how Extension has 
worked for 100 years.
    Back home in your states, you no doubt see the effects of 
Extension's work across the landscape. While it's true that we count 
things like people reached, acres impacted and dollars saved or earned, 
the durable effects of Extension emerge as healthy people, healthy 
economies and a healthy planet. The impacts and outcomes associated 
with Extension work generate huge public value. So what are some of the 
innovations?
    In my home State of Oregon, the Extension Service brings together 
vineyard managers, winemakers and students in shared learning 
environments--both in-person and online in a virtual setting to advance 
dramatic growth in this agricultural sector. The result--wine grapes 
catapulted to the 17th most important crop of more than 220 
commodities.
    In Minnesota, concerns over the influence of climate change and 
weather patterns are driving Extension to develop and implement 
adaptation strategies. Community by community, Extension helps growers 
make plant selection decisions, how to deal with uninvited pests, 
manage extreme variations in rainfall, and choose levels of crop 
insurance
    In Georgia, rising energy costs have made energy efficiency a high 
priority on farms, yet many farmers have trouble financing these 
improvements. Energy assessments across 47 poultry farms, dairies, turf 
and row crop farms provided by Extension assisted in $3.6 million of 
grant-requested renovations and projected annual savings of more than 
$10,000 per farm.
    In Oklahoma, development of best practices regarding the 
intersection of cattle grazing and wheat production created decision 
models and education about their application that translated to $285 
million in savings from reducing lost production of wheat.
    In Cooperative Extension's first 100 years, we've learned a few 
things and adapted our strategies to match the way people learn in the 
21st century. Extension is moving beyond outreach to engagement with 
our audiences and partners. Outreach begins with an answer; engagement 
ends with one. Through engagement with those we serve, benefits are 
reciprocal and we learn as much as we teach.
    We're about much more than information sharing--we're in the 
knowledge business, and we bring to the table results of our cutting 
edge research--much of which is stimulated by this Subcommittee. Then 
we partner with communities--communities of place--of interest and of 
practice to adapt and share practices that get implemented across our 
natural and human landscapes.
    Without giving up the value of personal relationships and local, 
face-to-face education, Extension thrives in the web-based and 
socially-networked worlds too. Anywhere, anytime, any format defines 
our national network. As an illustration, this month, we'll answer five 
thousand questions through the electronic ``Ask an Expert'' system.
    Extension is a classic American innovation envied the world over 
for its ability to change lives and improve the availability of safe 
and affordable food. Extension attracts Americans in partnership that 
dramatically expands our capacity. Nearly 100,000 Master Gardeners 
provide 4.5 million volunteer hours and more than 800,000 pounds of 
food for local food banks. Extension puts our youth on positive 
trajectories through the 4-H program where participants are twice as 
likely to go to college and three times more likely to contribute to 
their communities. And Extension raises people up through our Expanded 
Food and Nutrition Education Program where 90 percent of low-income 
adult participants and 60 percent of youth improved their food choices.
    With the leadership of visionary policy makers and annual 
appropriations of approximately 300 million capacity dollars provided 
by the Smith-Lever Act, we accomplish much. Smith-Lever funds are hard-
working dollars that generate state and county investments and help 
create the infrastructure that allows effective targeting of 
competitive grant monies. For less than one Federal dollar per American 
citizen, we

  <bullet> keep a local office open in more than 3,000 counties,

  <bullet> enroll nearly seven million youth in the legendary 4-H youth 
        development program,

  <bullet> advance nutritional food support to limited-resource 
        families, and

  <bullet> focus on rapid response through Extension's Disaster 
        Education Network, among other priority programs.

    Recognition of the first 100 year legacy of the Smith Lever Act is 
important--but this isn't about looking in the rear-view mirror. More 
critical is the windshield view of continual adaptation to new issues, 
audiences and approaches. The next 100 years will continue translating 
science for practical application; engaging learners to co-develop 
solutions to complex problems; transforming individuals, families, 
communities and businesses in rural and urban environments. That is the 
work of Cooperative Extension.

    The Chairman. Thank you, Dr. Reed.
    Dr. Lyons.

        STATEMENT OF DR. L. WASHINGTON LYONS, EXECUTIVE
            ADMINISTRATOR, ASSOCIATION OF EXTENSION
          ADMINISTRATORS, GREENSBORO, NC; ON BEHALF OF
 DELBERT T. FOSTER, ACTING VICE PRESIDENT, LAND-GRANT SERVICES 
 AND EXECUTIVE DIRECTOR, RESEARCH & EXTENSION PROGRAMS, SOUTH 
                         CAROLINA STATE
            UNIVERSITY, ORANGEBURG, SC; ON BEHALF OF
            ASSOCIATION OF EXTENSION ADMINISTRATORS

    Dr. Lyons. Mr. Chairman, Members of the Subcommittee, I 
would like to thank you for the opportunity to appear before 
you today on behalf of the Association of Extension 
Administrators. I would just like to take a few minutes to 
share with you the importance of Cooperative Extension to the 
state, to our communities and to this country as we celebrate 
100 years of extended knowledge and changing lives. But first I 
would like to thank you, Mr. Chairman, and Members of the 
Committee for your support for the funding that you have 
provided to Cooperative Extension, capacity as well as the 
competitive funding.
    Without the capacity funding, we would not be able to have 
the infrastructure that we would need to answer the questions 
and to provide the programs to change the lives of the people 
we work with. Without the capacity funding, we would not be 
able to be effective in implementing the competitive funding 
that we receive through NIFA at USDA.
    The land-grant system was created by the Morrill Acts of 
1862 and 1890. The 1862 Morrill Act created a land-grant 
university in each state and the 1890 Morrill Act extended the 
land-grant status to the Historically Black Land-Grant 
Universities in the southern states and the border states.
    The Smith-Lever Act, as you know, gave rise to the 
Cooperative Extension Program in 1914, which is a unique 
partnership between the U.S. Department of Agriculture and the 
land-grant universities. However, when the Smith-Lever Act was 
passed in 1914, it created Extension at the 1862 land-grant 
universities. The Act did not provide funding for the 1890 
land-grant universities at that time. In 1972, Congress 
appropriated the first funding to support Extension at the 1890 
land-grant universities, and that gave rise to the support of 
both 1862 and 1890 land-grant universities sharing the 
responsibility of implementing Extension programs in the 
southern states as well as throughout this country.
    Today I would like to focus my comments primarily on what 
the 1890 land-grant universities are doing to contribute to 
Extension programs in this country. The 1890 land-grant 
programs and Tuskegee, although Tuskegee is not an 1890, but it 
is an institution that benefits from the Land-Grant Act and 
carries on a great deal of work in support of Cooperative 
Extension and the land-grant mission.
    In general, all the Cooperative Extension programs are 
designed to help people to develop the knowledge and skills 
they need to solve the problems they are facing, but the 1890 
land-grant universities have a special mission and mandate. 
Many of these people have limited resources. They do not have 
the same opportunities as others so the 1890s focus on that 
client group.
    The Cooperative Extension programs of the 1890s have 
programs that are comprised of a broad range of science-
educational efforts, which have been proven to strengthen the 
food and agriculture industry, particularly small and limited 
resource farmers: by developing agricultural production systems 
that are efficient, sustainable and highly competitive in the 
global economy; enhance the health of families through diet and 
nutrition and food safety education and their economic well-
being through practical financial education; enhance youth 
skills in science, technology, math, citizenship and 
leadership; and also foster strong, stable communities through 
leadership development efforts and encouraging 
entrepreneurship.
    As Cooperative Extension continues in the future, the focus 
will be on addressing emerging and critical issues that are 
impacting families, youth, communities and agricultural 
producers. With the projected growth in the population there 
will be many issues and challenges that must be addressed in 
both rural and urban Cooperative Extension with the research 
base that the land-grant university will be in a unique 
position to help address those challenges and issues.
    Mr. Chairman and Members of the Committee, the future of 
the land-grant system in this country looks great, and we look 
forward to continuing your guidance, your oversight and support 
during the next century of discovery, teaching and engagement. 
We clearly understand what we do is not about us but about the 
people we serve.
    God bless you, the Members of this Subcommittee, and God 
bless America. Thank you.
    [The prepared statement of Mr. Foster follows:]

 Prepared Statement of Delbert T. Foster, Acting Vice President, Land-
 Grant Services and Executive Director, Research & Extension Programs, 
     South Carolina State University, Orangeburg, SC; on Behalf of
                Association of Extension Administrators
    Mr. Chairman and Members of the Subcommittee, I want to thank you 
for the opportunity to appear before you this morning on behalf of the 
Association of Extension Administrators. I would like to share with 
you, the importance of the work of Cooperative Extension to our 
communities, states and country as we celebrate 100 years of Extending 
Knowledge and Changing Lives.
    First, I would like to thank you for your support of Cooperative 
Extension. The capacity and competitive funding that you provide for 
Cooperative Extension is crucial to providing the infrastructure and 
ability to generate the knowledge and programs needed to respond to 
critical and emerging issues impacting society.
Background
    The land-grant system was created by the Morrill Acts of 1862 and 
1890. The 1862 Morrill Act created a land-grant university in each 
state and the 1890 Morrill Act extended the land-grant status to the 
historically black public universities in the southern and border 
states, where due to segregation, African Americans were barred from 
attending the 1862 institutions.
    Cooperative Extension is a part of the tripartite mission of the 
land-grant university, which is Teaching, Research and Extension. The 
Smith-Lever Act was passed in 1914 and gave rise to the Cooperative 
Extension System in this country, which is a unique partnership of the 
U.S. Department of Agriculture and the land-grant universities. There 
are three types of institutions that have the responsibility for 
implementing Extension programs. They are 1862 land-grant universities, 
1890 land-grant universities and the 1994 tribal colleges.
    However, when the Smith-Lever Act was passed in 1914, it created 
Extension at the 1862 land-grant universities. The Act did not provide 
funding for the 1890 land-grant universities, at that time. In 1972, 
Congress appropriated the first funding to support Extension at the 
1890 land-grant universities. Now, the development and implementation 
of Extension programs is the mission of the 1862s, 1890s and 1994 
tribal colleges.
Program Overview
    Today, I will focus my comments primarily on the involvement of the 
1890 land-grant universities and Tuskegee University in the delivery of 
Cooperative Extension programs.
    Cooperative Extension provides useful and practical research based 
programs and information that address critical issues and problems that 
are impacting agriculture, families, youth, businesses and communities. 
When people are confronted with a major problem or issue, they want a 
trusted resource for unbiased information.
    In general, all Cooperative Extension programs are designed to help 
people to develop the knowledge and skills they need to solve the 
problems they are facing, but the 1890 land-grant universities have a 
special mission and mandate. Many of the people the 1890 land-grant 
universities work with have limited personal or family assets, limited 
opportunities or they come from communities that have limited 
resources. However, none of this matters, because the task is to meet 
people where they are and move them to the next level. Moreover, the 
programs are designed to transform behavior and improve the quality of 
life.
    In the early days of Extension, the pioneers used the Jessup Wagon 
or the Movable School, which was a horse drawn wagon and later a panel 
truck to deliver programs. Today, a variety of technologies are being 
used to deliver programs. Many of the universities have mobile units, 
which are school buses, in some instances, that have been transformed 
into classrooms that are equipped with satellites, computers, 
projectors and flat screens to deliver programs to under-served 
communities in both rural and urban areas. The units are used to 
deliver a variety of programs using technology that may not be 
available in some of the remote rural areas. For example, the units are 
used to teach families and individuals basic computer usage, business 
development skills, financial planning, farm planning, entrepreneurship 
development and food safety.
    The 1890 Cooperative Extension programs are comprised of a broad 
range of science based educational efforts, which have been proven to:

    1. Strengthen the food and agricultural industry, particularly 
        small and limited resource farmers, by developing agricultural 
        production systems that are efficient, sustainable and highly 
        competitive in the global economy.

    2. Enhance the health of families through diet and nutrition and 
        food safety education and their economic well-being through 
        practical financial education.

    3. Enhance youth skills in science, technology, math, citizenship 
        and leadership.

    4. Foster strong, stable communities through leadership development 
        efforts and encouraging entrepreneurship.
Small-Scale Agriculture
    Cooperative Extension has developed transformation programs that 
have improved the economic viability of small scale agriculture and 
reduced the decline of small minority-owned farms. Programs emphasizing 
agricultural diversification, marketing strategies and risk management 
have been of paramount importance to this client group. Many of the 
small farmers have diversified their operations to include vegetable 
production, fruits, specialty crops and animals to increase their cash 
flow.
    For example, the development of a Natural Hog Growers Association 
increased its membership hog-sale income by over $200,000 in North 
Carolina and they have entered into contracts with the Whole Food 
Market. The development of the Master Meat Goat Herdsman Program has 
saved producers over $16,250, annually, in Florida in veterinarian and 
production costs.
    In Alabama, farmers participating in a comprehensive program in 
record keeping, financial management, production management and farm 
planning have become more efficient producers. It was reported that 13 
farmers acquired USDA farm ownership loans in the amount of $2.6 
million and ten acquired operating loans for nearly $1.0 million. 
Without this training, the farmers would not have qualified for the 
loans. Programs of this nature enabled the limited-resource farmers in 
Kentucky to increase their net farm income by $4,500.00.
Nutrition and Health
    Obesity is a serious health concern for both children in adults. 
Nutrition education programs, such as the Expanded Food and Nutrition 
Education Program (EFNEP), are being implemented to help families 
understand the importance of consuming more fruits and vegetables, 
making healthy food choices and engaging in physical activity. Programs 
have focused on helping individuals and families to understand that 
poor dietary choices and unhealthy life styles can lead to chronic 
diseases. This contributes to an increase in health costs for the 
family and others, if they cannot afford the care. Participants in the 
various programs have indicated that they are consuming more fruits and 
vegetables and preparing more healthy meals. The 1890 land-grant 
universities are making a difference, but there is still a lot of work 
to be done in this area.
4-H and Youth Development
    Recent youth development research indicates a need to provide 
opportunities for young people to increase their leadership skills. 
Creating opportunists to engage young people in leadership roles is a 
priority of 1890 Extension. Moreover, through the development of the 
Teen Leadership Connection Curriculum in Texas, after school programs 
were established in partnership with selected public schools. 
Extension's work with 4-H volunteers has developed 4-H programs 
addressing the problem of low self-esteem, high dropout rates and 
juvenile delinquency. After School and summer 4-H enrichment programs 
have enhanced youth skills in science, engineering, technology, 
leadership and citizenship. In South Carolina, the Tech-Bridge Program 
is a 5 week summer technology/academic enhancement program for rising 
6th and 7th graders. The participants are taught how to build a 
computer from the frame to a Computer Processing Unit (CPU). In 
addition, the students are required to load all of the academic 
software and are trained in CYBER-SAFETY and proper Internet decorum. 
As a result of their participation, youth reported success in setting 
goals, appreciating cultural differences, a better understanding of 
leadership, positive change in behavior, improved academic performance 
and an interest in STEM disciplines as a career.
Economic Development
    Independently owned and operated business enterprises are a vital 
part of the local economy. Helping entrepreneurs to develop, launch and 
sustain their businesses is a primary goal of the economic development 
activities of Cooperative Extension at the 1890 land-grant 
universities. Programs have focused on developing business plans, 
enhancing business management skills, marketing and managing risk. The 
development of a Virtual Entrepreneurship Center (VEC) uses social 
media platforms to merge traditional methodologies with online 
resources to deliver a comprehensive entrepreneurship program in 
partnership with each of the state's land-grant institutions in 
Alabama. The Virtual Center located at Alabama A&M University, uses 
integrated conferences, entrepreneurship training and social media to 
expand delivery, widen customer bases and improve business interactions 
for the millions of online contacts reached since September 2012.
Future Direction for Extension
    As Cooperative Extension continues, in the future, the focus will 
be to address emerging and critical issues that are impacting families, 
youth, communities and agriculture producers. With the projected growth 
in the population, there will be many issues and challenges that must 
be addressed in both rural and urban areas. Cooperative Extension with 
the research base at the land-grant universities is in a unique 
position to respond to the challenges and issues. Some of the issues to 
be addressed would include maintaining a safe and abundance food 
supply, protecting the environment to ensure water quality and 
quantity, helping to maintain a healthy society to reduce health care 
costs, providing opportunities for youth to become leaders and 
productive citizens, increasing the number of youth interested in the 
science, engineering, technology, and mathematics fields, helping to 
increase the sustainability and profitability of family farms and 
increasing energy independence. To remain effective, we must continue 
to develop and implement research based programs and use the latest 
technology in our delivery system.
Conclusion
    In conclusion, Mr. Chairman and Members of the Subcommittee, I 
would also like for you to know that many states with multiple land-
grant universities have a very productive history of working together 
in the development programs and activities. Effective Fiscal Year 2015, 
the USDA National Institute of Food and Agriculture (NIFA) has mandated 
that all states will submit a Joint Land-Grant State Plan of Work. This 
requirement ensures that the universities will provide stakeholders 
with the most cost effective and efficient Research, Teaching and 
Extension programs, services and activities. In addition, the Joint 
State Plan of Work will enhance program planning, implementation and 
evaluation, as well as eliminate the possibility of duplication.
    The future of the Land-Grant System in the country looks great and 
we look forward to your continued guidance, oversight and support 
during the next century of discovery, teaching and engagement! We 
clearly understand what we do is not about us, but about the people we 
serve!
    God bless you, the Members of the Subcommittee and God Bless 
America!

    The Chairman. Amen, Dr. Lyons, and I see that Mr. Delbert 
Foster has joined us. I know that the weather and traffic 
caused you some problems, and thank you for being here, and I 
would like to ask unanimous consent that Mr. Foster be allowed 
to participate as a witness in the question-and-answer session 
of the Committee, and seeing no objection, Mr. Foster, we will 
be happy to have your participation in the question-and-answer 
session.
    If you would like to make a brief statement since you came 
in late, we would be happy to allow you a couple of minutes for 
that, and then we will move into the questions.
    Mr. Foster. Yes, Mr. Chairman. I really appreciate that. 
This is a prime example of what Extension does in this country, 
where Dr. Lyons will pick right up and take the baton and 
deliver what Extension is supposed to deliver. It is like an 
Extension agent in the country that may have had a flat tire or 
may have had a delayed meeting. The participants, the clients, 
the citizens are expecting Extension to produce, and we do it 
with a team effort in our states and our counties and in our 
districts. Thank you.
    The Chairman. Thank you, Mr. Foster, and the chair would 
like to remind Members that they will be recognized for 
questioning in the order of seniority for Members who were here 
at the start of the hearing. After that, Members will be 
recognized in order of arrival. We will rotate between 
Democrats and Republicans, and I appreciate the Members' 
understanding. I now recognize myself to ask a question of the 
fellow Georgia Bulldog, if I may.
    Ms. Hammock, as a leader in 4-H, which is one of my 
favorite organizations, I can't help but give credit to FFA as 
well as I sit here as a Member of the Agriculture Committee, 
what would you suggest are the greatest opportunities and 
challenges confronting the 4-H program as it begins its second 
century.
    Ms. Hammock. Honestly, I look back over the last century, 
4-H, we started as a canning club in Crisp County in 1902, so I 
can't help but look at the rich history that we have to draw 
from, and you said challenges, but I look at this number. We 
serve seven million youth across the world. We are in 3,068 
counties across the United States, so I don't see challenges, 
and even if there are challenges, I firmly believe that 4-H'ers 
are adequately equipped to handle those challenges of the 
coming century.
    The Chairman. Thank you, ma'am.
    Dr. Reed, Cooperative Extension rural versus urban, do you 
consider it still primarily a rural-focused organization, or 
can you speak to the areas where we are moving into an urban-
type setting?
    Dr. Reed. Thank you, Chairman Scott. This Extension Service 
covers every acre of our nation. It is true that our history 
and our focus is in rural America, and when I look at the rural 
parts of my own state, Extension provides a critical service to 
rural communities and those managing the land. In many cases, 
we are the only provider of knowledge in town, and in that 
respect, it is a very responsible leadership position in order 
to continue to make that contribution to rural America.
    We also, though, however, need to pay attention to the rest 
of the customers of the Extension Service, the residents of our 
state that may not live in rural areas but they depend upon 
rural areas, and so we are learning to adapt our programs and 
to use knowledge to react to the needs of urban citizens as 
well.
    One of the particular themes of the conversation that is 
growing in Oregon is the concept of interdependence. I think we 
too often speak about rural and urban divides or technology 
divides. Instead, we are finding that residents of our state 
have a common future, and by co-committing to the value of, in 
this case, rural Oregon, our urban residents benefit as well.
    The Chairman. Thank you, Doctor.
    Dr. Ramaswamy, you mentioned the ability of the Extension 
System to adapt to the changing needs. How is USDA facilitating 
the Extension's adoption of new technologies and new ways to 
communicate with its customers?
    Dr. Ramaswamy. Mr. Chairman, in multiple different ways, 
one of which is, we have this program called eXtension that I 
referred to in my opening comments, and this basically allows 
for us to bring together the best brains, intellectual 
resources from around the country to address the questions that 
we have. And so that has created a network across the United 
States, an online network as well as local networks that have 
been created, and so USDA basically facilitates that effort 
through funding that we provide as well.
    The Chairman. Thank you, Doctor, and I will tell you, 
somebody from the Farm Belt getting the information to the 
people who are actually putting the crop in the ground is 
extremely important, and I appreciate all of you being here to 
testify, and with that, I will yield the remainder of my time 
and turn it over to Mr. Schrader from Oregon for 5 minutes.
    Mr. Schrader. Thank you, Mr. Chairman.
    Going back to Dr. Ramaswamy here, where do you see the 
biggest growth of requests for information now from Extension 
agents in the Extension Service?
    Dr. Ramaswamy. Congressman Schrader, the biggest growth has 
been really in the realm of youth, families and nutrition area. 
You know, obviously agricultural questions continue to come as 
well but really the growth has been in issues pertaining to 
children and youth and nutrition.
    Mr. Schrader. These are tough budget times, and we struggle 
here, as you know, here in D.C. to maintain a budget, and I 
know from my experience back in Oregon as budget chair, it was 
tough to fund some of these things. What is your experience 
with other states around the country in funding for Extension?
    Dr. Ramaswamy. Well, the funding for Extension has been, 
particularly in the last 3 to 4 years with the very deep 
recession that we had, has been very challenging. In fact, 
across America Extension has lost about \1/3\ of its footprint. 
When I am talking about \1/3\ of its footprint, I am talking 
about boots on the ground. These are Extension agents. These 
are the folks that really translate the knowledge and deliver 
it to the end-users, and we lost that, and we need to be very 
concerned that this global preeminence that I was referring to 
is in jeopardy if we do not go ahead and turn things around, 
and we need to make the commensurate public investments, and it 
is just not the public investment. We are going to have to 
bring in private enterprise as well, and indeed across America, 
a lot of the different states have figured out different ways 
to bring in private investments along with public investments 
as well.
    Mr. Schrader. Dr. Reed, you have often talked about going 
beyond outreach, trying to get people engaged and stuff. Could 
you elaborate a little bit on the engagement aspect you talk 
about?
    Dr. Reed. Yes. Mr. Chairman, Congressman Schrader, thank 
you for the opportunity. The concept in the word engagement is 
finding its way into our work more and more common. What it 
does is recognizes that we don't have a corner on all the 
knowledge but that we can work collaboratively with those that 
we are serving and partners in order to recognize and put that 
knowledge to work. It really seeks to make the universities a 
better community but establishing reciprocal benefits, so while 
we're contributing to the success of those we serve, we are 
also learning and becoming better over time.
    As I mentioned in my testimony, the issues of today are so 
complicated, there is not a single answer to many of them, so 
we find ourselves developing with our partners a set of 
alternatives and consequences and then helping those that need 
to make the decisions make the one that is best for them.
    Mr. Schrader. And Dr. Reed again, we have alluded to 
different core missions for Extension, and it seems, listening 
to the testimony from all the witnesses here, there is really a 
panoply of opportunities that Extension serves. Do you feel 
that is still the appropriate role for Extension, again, tough 
budget-limited environments, we are trying to make sure 
taxpayer dollar go as far as they can, is it possible for 
Extension to continue to have that broad continuum of services?
    Dr. Reed. Mr. Chairman, Congressman Schrader, it is true 
that we listen to people's issues and try to respond. However, 
it is more important for us to provide a focus on those issues 
that we have a capacity to respond to and so that we are 
utilizing our resources in the best possible way.
    Mr. Schrader. That is good to hear. Sometimes it is tough 
to be all things to all people at the end of the day.
    Dr. Reed. I occasionally describe the Extension Service as 
sounding like the parable of the blind man and the elephant. 
People believe they know Extension based upon the part that 
they touch, and if you are a master gardener, you think that is 
all Extension is, but it is true that we serve a variety of 
audiences.
    Mr. Schrader. I am glad you do.
    Mr. Foster.
    Mr. Foster. Yes, sir.
    Mr. Schrader. Sir, you got in a little late, apologize for 
that, but in your written testimony you talk about that Joint 
Land-Grant State Plan of Work. Could you elaborate on that a 
little bit?
    Mr. Foster. Yes, sir. We started in Clemson University in 
South Carolina in 1999 where our plan for the state, we meet, 
we coordinate our activities, goals and objectives so that 
there is not a sense of duplication so that when we are 
speaking to our state legislators as well as our Federal 
legislators, that question becomes a new point, and now that 
Mr. Ramaswamy has taken over, all states will have to submit a 
state joint plan of work for the land-grant services and have 
it approved prior to receiving their appropriation, and we 
started that with Clemson. Two thousand was the first year that 
we have done it and every year since.
    Mr. Schrader. Congratulations. That is a very smart way to 
go, especially in this environment.
    Mr. Foster. Yes, sir.
    Mr. Schrader. I have a quick question to our youngest 
witness up there. What should Congress be doing to better 
support 4-H? Great program.
    Ms. Hammock. Well, already this Committee does so much for 
Cooperative Extension continuing the work we do, adding another 
century onto what we already have. Obviously continuing to grow 
is very important to us, and one of the most exciting things 
that we get to see, and I get to see as a Youth Trustee, is the 
growth globally. I just got to visit Africa this past 
September, and this completely testifies to the life-saving 
principles of 4-H here in the United States. We measure success 
with a blue ribbon but they measure success by being able to 
eat dinner. So thank you very much for the work you do. It is 
much appreciated by seven million people around the world.
    Mr. Schrader. Thank you very much, and I yield back, Mr. 
Chairman.
    The Chairman. I now recognize the gentleman from Illinois 
for 5 minutes.
    Mr. Davis. Thank you, Mr. Chairman, and thank you to each 
of you for being here today. Thank you, Mr. Foster, for making 
the long trek. Welcome to our world.
    Mr. Foster. Yes, sir.
    Mr. Davis. It was mentioned that the Smith-Lever Act was 
part of the beginning of one of the great things that happened 
in central Illinois when it comes to Extension Services, it 
comes to 4-H and it comes to land-grant universities like the 
one I represent, the University of Illinois. I am very proud of 
some of the partnerships that University of Illinois has been 
able to make in my community, and I have seen young people grow 
into great leaders who have gone through the same programs, Ms. 
Hammock, that you continue to tout today, and I am very 
thankful for that.
    I want to get into the questions really quick. One of my 
priorities is food security and food insecurity in this 
country, and I urge each of you to read a book that I just 
finished written by one of my constituents, Howard Buffet, that 
is called 40 Chances and talks about food insecurity issues 
globally and how to address them by using America's ingenuity, 
and many of the ideas that he talks about in that book would be 
applicable to some of the issues that you would address with 
the folks you serve every day.
    Dr. Ramaswamy, you mentioned food security in your 
testimony too, and how have you seen the Extension Services 
successfully tackle some of the issues we are seeing in some of 
our poorest communities?
    Dr. Ramaswamy. Congressman Davis, thank you very much for 
that question. Just harkening back to the efforts that are 
going on in your state with the district that you represent as 
well and the fine work that is being done by the University of 
Illinois, for example, the Expanded Food and Nutrition 
Education Program, EFNEP, has been very successful in making 
sure that the limited-resource individuals, their needs are 
met, their health needs, nutrition needs, et cetera, are being 
met, and so there is one example of EFNEP actually reaching out 
and working with particularly limited-resource individuals. In 
addition to that, we have also got programs in family and 
consumer sciences and the nutrition area, and Supplemental 
Nutrition Assistance Program, SNAP, education, for example, the 
SNAP-Ed program that we have as well.
    Again, our Extension colleagues in Illinois, they partner 
with the EFNEP colleagues and work collaboratively to make sure 
that there is good education about safe food, healthy food, 
food safety, et cetera, addressing the food security/food 
insecurity that you're referring to.
    Mr. Davis. Thank you very much.
    Ms. Hammock, you mentioned food security in your testimony 
too. What can you tell me that 4-H is doing to help address 
some of the issues that we see here in this country?
    Ms. Hammock. Absolutely. Thank you, Mr. Congressman. I am 
so excited actually that you asked that question. I had the 
opportunity to go to New York City this past April, and 
actually today several of our trustees and council members are 
visiting Tucson, Arizona, and one of the wonderful things that 
4-H is doing is giving children and high schoolers the 
knowledge, the tools, the opportunity to grow in urban food 
deserts. So we got to visit the Food and Finance High School in 
Manhattan, and it is a five-story high school. I did not know 
high schools could go up. I thought they just went out. But it 
was just so amazing to see them use aquaponics and hydroponics 
to produce food for themselves and their communities and to 
sell that, so it is not only just food security, it is economic 
security because they are selling it, and I can't wait to hear 
about the Tucson trip when people get back later on this week, 
but that is just a little part of what 4-H is doing.
    Mr. Davis. That is great, in Illinois, we take for granted 
that everybody knows where the food comes from that gets to the 
table, so to see you participate, to see 4-H participate in 
trips like that to highlight what is going on in urban areas is 
essential to addressing many of the food insecurity problems 
that we have in this country.
    I only have a few seconds left, and I just want to say 
thank you to each and every one of you for what you do. It is a 
problem. The food security issue is a problem with so many 
kids. I am very concerned about the School Nutrition Program 
where we have seen kids have to get by on less calories, and 
those are some of the kids who need it the most. They are the 
most food-insecure kids that we have, those who rely on the 
free lunch program, and it frustrates me that many cafeterias 
in my district are limited in what nutritious foods they can 
actually give to our kids. Washington shouldn't be the 
barometer of what kids get to eat. It should be a local school 
district issue, and I appreciate what you do outside of the 
school to highlight some of the food security issues, and thank 
you for being here, thank you for your time, and thank you for 
your service. I yield back.
    The Chairman. I now will recognize the gentlewoman from 
Ohio for 5 minutes.
    Ms. Fudge. Thank you so much, Mr. Chairman, and I thank my 
colleagues for allowing me to go out of order.
    I actually only have two questions, and they are both to 
you, Mr. Foster. In your testimony, you discussed how 1890 
land-grant institutions have a special mission and mandate 
under the Act as opposed to 1862 institutions. Can you tell me 
what that special mission and/or mandate is as you see it and 
why it is necessary?
    And second, many of the best jobs and our ability to 
compete globally in a global marketplace are related to STEM 
yet the number of minorities and women choosing STEM majors in 
college is disappointingly low. How can Cooperative Extension 
specifically at the 1890 institutions address this issue?
    Mr. Foster. Thank you. Yes, ma'am. The first question, the 
special mission mandate is to serve those populations that 
traditionally have been under-served in our communities, and 
that goes to urban areas, limited resource base or income, 
education or other resources. That is the special mission that 
we see that we have as an 1890.
    Second, in reference to STEM, most of our universities are 
having a problem attracting members in the STEM field unless we 
conduct a program like my former board member spoke about at 4-
H development, and several 1890 universities have youth 
programs that introduce students and women to STEM-associated 
disciplines at an early age. In fact, in South Carolina we have 
Tech-Bridge, which is teaching 6th and 7th and some 8th graders 
where they actually build a computer, load all of the software, 
are taught all the ins and outs of how that CPU operates, and 
then are able to maintain a group of conscientious students and 
they teach those students and reteach those students and teach 
people in their communities. So that is just one of the 
examples of a STEM program that they really don't realize they 
are in STEM. They are just messing with gadgets. But at the 
final closing program to hear them articulate what they have 
learned in 5\1/2\ weeks and sometimes 6 weeks will let you see 
that they will truthfully garner that support they need at home 
and in their communities to pursue a STEM career.
    Ms. Fudge. Thank you. Mr. Chairman, I yield back.
    The Chairman. Thank you. I now recognize the gentleman from 
New York for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman. I guess I would like 
to share a little story with the group before I ask my question 
to Dr. Ramaswamy.
    I was the County Executive up in Erie County elected back 
in 2007, very rural area, but I now represent eight counties 
including some small counties. The Erie County Cooperative 
really is a major supporter of Cornell and the Cornell 
Cooperative, which while it is located just outside my district 
has offices throughout. Now, when I was elected, our county was 
effectively bankrupt. The state had taken over our finances, 
and I go line by line on the budget and I see this budget line 
for Cornell Cooperative. I don't know what that is. That was 7 
years ago. So I put that on the list of items that just might 
not be funded. Lo and behold, no one comes to see me so when I 
go to work through that, I eliminated all the funding to 
Cornell Cooperative. I now know what I know and can't believe I 
did that. I think you can appreciate it.
    Needless to say, I got a panicked phone call and found out 
if I didn't fund Cornell Cooperative through the county, they 
would get no Federal funding. So I put it back in the budget 
but my question is this: with tight finances around the 
country, certain New York State probably more than most, the 
rules are, if you don't have county funding to match the 
cooperative, in this case, Cornell Cooperative wouldn't get any 
funding. So I just have to wonder, are you hearing concerns 
from others? In the case of Erie County, we dwarf the size of 
the other counties. Without our support, Cornell Cooperative 
would not continue, and that is the lifeblood of most of our 
other counties, dairy, specialty crops. We have apples and 
peaches and our apple growers want to sell their apples to 
McDonald's, and Cornell has been very, very helpful in making 
sure they have what they need to meet the quality standards.
    So I am concerned, going forward, meeting the county match, 
and I understand multiplying the dollars by having counties and 
states put the money in but priorities are different in every 
county, and I just wonder if you have heard that and if you 
share my concerns and have anything else to--if you have heard 
this kind of story elsewhere.
    Dr. Ramaswamy. Congressman Collins, thank you very much for 
that question. You saw a smile on my face as you were talking 
about it. I smiled in the sense of recognition of that 
situation that we have throughout America where many, many 
local communities have had difficulty in meeting the budgetary 
needs that we have as well, and not unlike Erie County, in 
Indiana and Oregon and Illinois, as I said, about \1/3\ of our 
footprint has been lost across the United States. Washington 
State has lost about 50 percent of the Extension funding, for 
example. So this is the situation that we have.
    So one of the things that has happened, sir, is that 
Cornell University or Oregon State University or others that 
have had a situation like this, and Linn County is one of the 
counties in Oregon that saw a similar situation as well, is 
that the universities, the state funding and the Federal 
funding were still available to be deployed and then the 
neighboring counties picked up the slack, as it were. It was 
not like they were left high and dry and walked away from and 
there was a need for a cash flow type of situation as well. So 
the folks at the land-grant universities are aware of this as 
are ourselves here in USDA as well, and we are trying to figure 
out a way to create a path forward.
    Mr. Collins. Yes, and I can tell you after the scare that I 
put them in my first year, they came with a very detailed 
presentation each year after that, and they are in my office 
here, at least four or five times a year because they know that 
I know the issues as well and I am close to our legislators in 
the county and sometimes have to share with them through tough 
budgetary times.
    I would like to also mention--maybe I should be one of your 
witnesses--the 4-H in our rural communities, when they don't 
have the same menu of options for the kids is very, very 
strong, well-attended. Those are our future farmers. Many of 
our farms are five, six generations old, and as such, it is 
just almost a given that the kids will continue, whether it is 
dairy farming or crop farming.
    But I would just like to compliment Ms. Hammock because she 
represents what I have seen in many cases, young folks able to 
present themselves. You say public speaking is your passion, 
and I can see that it is. Most people don't share that passion. 
We have Members of Congress that won't give 1 minute speeches 
because they are afraid to talk in front of the world on C-
SPAN. I am just making that up. But I just want to compliment 
you for coming, and thank you for coming in because you really 
do put a face on what is good about 4-H and all the funding 
that we have. I am just grateful that we have a 5 year budget 
now that has actually increased some of these fundings. You 
know, flat is the new win, and the fact that you have a little 
more money in there shows the bipartisan support for everything 
Smith-Lever does and the impact across the country.
    So again, thank you all for coming in. It has been very 
interesting. Mr. Chairman, I yield back.
    The Chairman. Thank you. I now yield 5 minutes to the 
gentlelady from Washington.
    Ms. DelBene. Thank you, Mr. Chairman, and thanks to all of 
you for being here today. I appreciate it.
    Washington State University is the original land-grant 
university in my state, and I am fortunate to have an Extension 
up in Mt. Vernon in my district where they are doing great 
work, research as well as bringing members of the community 
together. They have a bread lab, bringing bakers and wheat 
growers together so they understand the impact the different 
crop varieties have on nutrition and the baking process and 
taste, et cetera. So there is a lot of great work happening up 
there, and a lot of the work they are doing is supported 
through programs like the Specialty Crop Research Initiative, 
and it does have a huge and lasting impact, not just to the 
local growers but to entire industries and broadly to the 
public. Research on improving crop yields through plant 
mitigation, sun exposure, irrigation, mulch, all have had a 
dramatic impact on our food supply, and so we see real results 
from the work they are doing.
    That kind of leads me to a question for you, Dr. Ramaswamy. 
It is my understanding that after the last farm bill that you 
began, or the USDA began awarding multi-year research grants 
maybe more than it had done historically, and so I wondered, do 
you think that that is a successful path and are you still 
looking at awarding larger or multi-year grants, given that 
research is something that takes place over a longer period of 
time?
    Dr. Ramaswamy. Congresswoman DelBene, thank you so much for 
that question, and I want to congratulate you as well, and 
Washington State University has done some tremendous work in 
your state and in your district as well.
    In regards to the multi-year research grants that we 
started doing as a result of the 2008 Farm Bill, yes, that is 
correct. What we have done is, the question that you asked me, 
has it been beneficial, is it achieving what it set out to do. 
We have asked the National Academy of Sciences to actually look 
at that question, and they are going to be providing us with a 
report in June and we are going to take that report and 
determine whether or not that has been a successful model.* But 
in the meantime, we have not quit. What we have done it to 
basically continue those multi-year investments but we have 
scaled it back down a little bit where we are doing $30 and $40 
million grants. In fact, Washington State has received a few of 
those and University of Washington as well. We have scaled it 
back down to between $5 and $15 million, and we will continue 
to do those continuation awards as well because it allows us to 
invest. These challenges that we are addressing are really 
complex and it requires multiple individuals to come together, 
multiple disciplines to come together over multiple years, and 
so we will not walk away from that but we are trying to scale 
how much it is going to be and what sort of objectives might we 
be addressing as well.
---------------------------------------------------------------------------
    * The report referred to is in process, the information concerning 
the basis of the study can be found at: http://
www8.nationalacademies.org/cp/projectview.aspx?key=49505.
---------------------------------------------------------------------------
    Ms. DelBene. That would be interesting to see the results 
of that because when I talk to our farmers and our researchers, 
they want to know that they have the investment, going forward, 
so they can really do the research well, and sometimes that 
means having the visibility, going forward. They know that they 
can complete the research they are doing, and it isn't always 
in a short-term time span that they look at.
    One thing that we saw during the debate over the farm bill 
that while the importance of agriculture is widely understood, 
in some areas it may not resonate so much in other parts of the 
country. I was wondering, and maybe this is a question a little 
bit for everyone, how can we use tools like Smith-Lever to 
deepen and broaden the education across the country and that 
connection to agriculture that we all do have. In areas of my 
district, there is a deep connection, and in other places, 
people aren't as aware of what is happening close by in 
agriculture, and so I wondered what your thoughts are on what 
we can do to improve that, going forward.
    Dr. Ramaswamy. I will take a shot at it very quickly. 
Indeed, the Cooperative Extension Service is the translator of 
knowledge and the deliverer of that knowledge to the end-users 
and they have done that exquisitely well over the last 100 
years, and part of that is to educate the populace as well, and 
we need to continue to foster that. Along with that, we also 
have programs like 4-H, for example. Ag in the Classroom is 
another outstanding program that enables particularly young 
kids to develop the knowledge as well. So it is going to have 
to be a multipronged approach. You know, earlier we had a 
question about science, technology, engineering and math. I 
myself like to throw the letter A into it for agriculture, and 
in fact, in America, a lot of the challenges that we see today 
are in part--about obesity and things like that are in part due 
to lack of understanding about food and where food comes from. 
So we really need to do everything we can to convey that sense 
of the education that we need, and the Smith-Lever Act and 
Cooperative Extension Service have really allowed us to do that 
very well.
    Dr. Reed. Mr. Chairman, Congresswoman DelBene, thank you 
for the question, and it is all surrounding food. It has become 
almost a tired phrase, that while only two percent of Americans 
farm, 100 percent of us eat, but it is true that people care 
about food and the food systems that surround them. The Pacific 
Northwest is a very foodie area, and to the point where some 
farmers markets are now labeling the food with how many miles 
it has traveled to get to people. And so I believe that we have 
a teachable moment for Americans in order to help them 
understand the consequences and the interdependencies that all 
of us have on our farmers and farmers markets. In fact, at 
Oregon State just 2 weeks ago, we hosted what we called the 
Small Farms Conference, and there are a large and growing 
number of individuals farming relatively small parcels, and 
they were regarded at this conference as rock stars. I mean, 
there was clearly a sense of pride and identity that I hadn't 
seen before.
    Ms. DelBene. Thank you. It looks like my time has expired. 
I yield back. Thank you, Mr. Chairman.
    The Chairman. Thank you. I now recognize the gentleman from 
Florida for 5 minutes.
    Mr. Yoho. Thank you, Mr. Chairman.
    I appreciate you all participating today, and you guys will 
agree that God intended us to live at 70 and above. Being from 
the great State of Florida where we have the University of 
Florida and IFAS, which is the Institute of Food and 
Agricultural Science, and we are blessed to have 67 different 
Extension agents throughout the state with the 67 counties. 
Having a diverse ecosystem from the Florida Keys where we have 
key limes, coconuts, tropical plants and of course, margaritas 
are down there, all the way up to the Georgia line to a more 
moderate temperate zone and the second biggest industry in 
Florida is agriculture, and we are proud of that. My background 
is, I am a veterinarian for the last 30 years, and I hold my 
roots with agriculture very dear to me, and I appreciate the 
effort and the work you guys have done to strengthen the 
Extension agents and the work that they do, especially you, Ms. 
Hammock, with the 4-H. My question that I would like to ask you 
is, what challenges are you seeing in extending the youth 
programs, especially in the inner city areas where we just need 
to get into those areas so much more. You were talking about 
Manhattan with the five-story high schools and hydroponics. I 
think that is a great way to break into an area, but to get 
people involved in ag, especially today, when we see so many 
people--agriculture is something they buy at a store, and we 
all know that you can't have a secure nation without a secure 
food source, so I would like to hear what your thoughts are on 
the challenges that you have seen.
    Ms. Hammock. Absolutely, and the challenges I have seen 
have actually sparked my interest in my major, which is 
agricultural communication, and this kind of goes back to your 
question about educating the population about why agriculture 
is so important, and those challenges are very evident. They 
are very pronounced. Like Dr. Reed said, two percent of 
population feeds 100 percent, and so that is an obvious 
challenge, and that is the first step of getting into the high 
schools in Manhattan and the large inner city areas of Atlanta, 
Manhattan, San Francisco, all of the larger cities, and this is 
a great starting point, and I am very proud of 4-H and the work 
we have done through the Cornell Cooperative Extension in 
Manhattan, but it is a starting point.
    Mr. Yoho. Have you seen specific challenges that we can 
address or maybe help? I know funding is the big issue. You 
know, more funding will solve a lot of these things. But just 
getting into a program, are you running into resistance?
    Ms. Hammock. Program such as----
    Mr. Yoho. Like in the inner cities to develop a 4-H program 
or ag programs, or anything like that.
    Ms. Hammock. There has actually been no resistance at all, 
which is great, absolutely. But there has really been no 
pushback on this. It is one of those things that people are 
very welcome to do and we as agricultural communicators are 
trying to make that story a little bit better.
    Mr. Yoho. Okay. Dr. Ramaswamy, you were talking about 
something you brought up, and I see this in Florida dealing 
with IFAS on nutritional counseling as it deals with the 
nutrition programs. What we see is, there is not only 
undernutrition in some areas but there is malnutrition that you 
brought out that leads to type 2 diabetes. You see a big role 
of the IFAS or the Extension agents going out and educating 
people. Do you want to elaborate on that, what else we can do?
    Dr. Ramaswamy. There are multiple areas where our Extension 
agents, our Extension educators might often be involved, are 
involved in many, many states including your state as well 
through IFAS, and obviously it is in the production of healthy 
food. Specialty crops particularly are known to have very 
significant positive health benefits. So you have Extension 
agents involved in that part of it and making sure that 
specialty crops are grown, they have healthier traits, the 
genetics part of it being incorporated as well. That is one 
area.
    The second area is the education piece of it. Through the 
Supplemental Nutrition Assistance Program--Education, SNAP-Ed 
and EFNEP, the Expanded Food and Nutrition Education Program, 
so that they are reaching out to the young people through 
schools, through faith-based and other non-governmental 
entities, and we need to continue to foster that education as 
well.
    The third area is in the type of agriculture we practice as 
well in terms of health impacts on the communities that live 
around where food is being produced as well. So education is a 
very significant part of this and then Extension certainly has 
in all these different domains been providing the knowledge 
necessary, reaching out to multiple conduits, as it were.
    Mr. Yoho. Right. We just had a director from one of the 
food banks come into our office today, and we were talking 
about canning. You know, on the farm today, we have farm 
communities and their families, they go into canning, they are 
putting up beans, corn and all that, and that is an art that is 
being lost that I hope we continue to promote throughout our 
population so we can produce our own foods. My wife and I when 
we were at the University of Florida, we were poor as a church 
mouse, and we had a garden plot that we went out there they had 
where you could go out and garden. And so we took advantage of 
that, and I think that is something we need to promote more.
    I appreciate all of you. I am proud to be associated with 
the Extension agents, and the Smith-Lever Act, I am proud of 
their heritage. Thank you all, Mr. Chairman.
    The Chairman. Thank you. I now recognize the gentlewoman 
from New Hampshire for 5 minutes.
    Ms. Kuster. Thank you very much, Mr. Chairman and Ranking 
Member Schrader, and thank you to all of the witnesses today. 
This has been a very enlightening hearing, and I appreciate the 
work that you do. I represent New Hampshire, western New 
Hampshire and the University of New Hampshire is our land-grant 
university, and we have farmers and foresters across the state 
that are working with the Extension. I wanted to mention to Ms. 
Hammock that I served on the board of the 4-H in New Hampshire 
a few years back, and I am very impressed by the program. My 
town has the largest state fair, and so 4-H and all that goes 
with it has been a big boon for us.
    I think we are all amazed and impressed by Congressmen 
Smith and Lever over 100 years ago to have been thinking about 
this and come up with a program that was so sustainable and so 
effective in so many different environments, and I am sure 
those of us here today would like to be a part of something 
that has that kind of longevity.
    I want to focus my questions briefly here on this 
discussion about healthy people, healthy planet, healthy 
economy, and how that is tied together. I represent a district 
that has a mix of urban, suburban and rural, but the challenge 
for me, and this came out during the farm bill, is that it is 
the rural areas where we tend to have the challenges with 
access to healthy food, and I find that somewhat distressing 
because this has happened over the course of my generation. 
When I was a girl, everyone had a garden and people raised 
animals and raised food, but now part of it is just people's 
lives are so busy and we have lost some of that. And so I guess 
my question is directed at the panel, anyone that would like to 
respond, on what we can do to put healthy food back into 
people's lifestyles, and I want to commend my colleague, Marcia 
Fudge, who had an amendment that we did pass on food deserts 
and that will be helpful in the rural communities as well. But 
I welcome your thoughts.
    Dr. Ramaswamy. Congresswoman Kuster, indeed, as you said 
right towards the end of your opening comments, that we have 
the situation with food deserts in rural areas in a country 
where we know how to grow food and we can feed the entire 
world, and thus, it is a mind-boggling situation that we have. 
We have these food deserts, and in part, it is the logistical 
aspects that we need to be addressing of food distribution that 
needs to occur as well along with education, access to safe and 
secure food. These are things that our Extension folks are 
really addressing. If you go across the United States, even 
within New Hampshire itself, the University of New Hampshire 
very clearly is addressing these sorts of questions of making 
sure that people that have no or low access to food, their 
needs are being met as well.
    One other example about this connectivity between healthy 
people, a healthy planet and a healthy economy is, University 
of New Hampshire has an excellent program that works on 
greenhouses. The greenhouse industry in New Hampshire is about 
a $250 million industry that employs about 12,000 people, and 
the work that is being done with the greenhouses to grow crops, 
fruits and vegetables and things like that, and incorporated 
into that is more effective and efficient means of energy use, 
and so there is a 10 to 15 percent reduction in the cost of 
energy producing these healthy foods that now is being made 
available for distribution, and it creates jobs as well.
    Ms. DelBene. Great. Thank you. Excellent example. Yes, Dr. 
Reed?
    Dr. Reed. Yes, Mr. Chairman, Congresswoman Kuster. I often 
use healthy planet, people and economy to sort of help frame 
conversations because you might recognize them as the pillars 
of sustainability but they are all interdependent and we need 
to work on all in order to advance kind of social welfare. And 
while this is only a partial answer to your question, it seems 
to me that compared to yesteryear, society today is some time-
driven in both urban and rural areas that we simply can't find 
easy ways to take the time to produce the food that I think we 
would all enjoy seeing in rural or urban environments. So if we 
could figure out a way to slow down the clock, that might be a 
way to make some progress.
    However, seriously, our master gardener program, which was 
our most successful and significant volunteer training program 
has made a dramatic and observable shift to food production 
where historically it had been focused more on the 
environmental side of things and something that is central to 
the stock and trade of Extension education is to work in peer-
to-peer education because individuals can accomplish sometimes 
more than we can, and so it is my hope that we could adapt the 
master gardener program to find a place in urban environments 
to do exactly what you described.
    Ms. DelBene. Thank you. My time is up, and I have a guest 
from the food bank, so I am going to have to step out. But 
thank you so much for your testimony. I appreciate it.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, ma'am.
    Before we adjourn, I invite the Ranking Member to make any 
closing remarks that he has.
    Mr. Schrader. Well, I appreciate that, Mr. Chairman. What a 
great hearing. Tough times in our great country. It is nice to 
see positive influence. Continue to take no prisoners and 
continue to be a leading guiding light in food production, 
leadership, and for our younger generation, see them grow and 
develop the way they do through 4-H is just emblematic of I 
hope what the future of this country is all about.
    I had the privilege of being guided through my educational 
career by three different land-grant institutions--Illinois, 
Cornell and, of course, my Oregon State--go Beavs--and really 
appreciate that opportunity, and everyone has been influenced 
and impacted more than they probably realize by the work these 
ladies and gentlemen do every day under tough circumstances.
    So happy 100th anniversary to you all.
    The Chairman. Thank you, Mr. Schrader, and ma'am and 
gentlemen, thank you for being here. I am proud to be a Member 
of the Agriculture Committee where, as you can see, we are able 
to work closely together. We understand that food security is a 
part of national security, and we understand that this Act has 
helped us as Americans and as a country to provide that 
nutrition that Americans need in a very efficient and effective 
manner.
    Ms. Hammock, thank you for representing 4-H in the manner 
that you do. Such a professional. I have a tremendous amount of 
respect for that organization and the young leaders that come 
out of that and look forward to the day when people like you 
are representing us in Congress.
    With that said, any written statements from the witnesses 
shall be made part of today's record, and under the rules of 
the Committee, the record of today's hearing will remain open 
for 10 calendar days to receive additional material and 
supplemental written responses from the witnesses to any 
questions posed by a Member.
    This hearing of the Subcommittee on Horticulture, Research, 
Biotechnology, and Foreign Agriculture is adjourned.
    [Whereupon, at 11:20 a.m., the Subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]
   Submitted Statement by American Society for Horticultural Science
    Happy Birthday Smith-Lever Act! You are the conveyer of our 
research programs, and a positive facilitator of progress and 
prosperity. The American Society for Horticultural Science (ASHS), the 
world's premier professional society for horticulture science, 
education, and training, considers Extension to be an inestimable gift 
for agriculture research and the entire land-grant system. You convert 
our discoveries into applicable deeds. From our extensive research and 
analysis, you provide tools translating critical data into applied 
science--educating and training current and future farmers to be good 
stewards of the land, and wise protectors of their resources. Without 
Extension assistance, we might not enjoy benefits from 4-H Clubs 
educating our youth. Or training Master Gardener volunteers who provide 
regional-based horticulture counsel. Or Family and Consumer Science 
programs which sustain so many rural and urban communities. For land-
grant institutions, your outreach and support verifies the very essence 
of their continued legacy to our nation.
    With Senator Hoke Smith (D-GA) and Rep. Asbury Lever (D-SC) as your 
first patrons, and President Woodrow Wilson as midwife. you were born 
on May 8, 1914 in the crucible of a new century, as demographic shifts 
and waves of immigration signaled new challenges and demands for 
agriculture. Three years before America's entry into World War I, you 
taught us how to plan and create urban gardens, preserve and prepare 
food. and create new energy sources that would see us through dynamic 
and transformative times ahead. Embarking upon your second centennial, 
Extension remains a vibrant and integral part of the trifecta fueling 
innovation and growth for American agriculture.
    With education and training as core principles, Smith-Lever 
disseminates information far and wide, from print manuals and videos to 
online services and on-site training. This broadens agriculture 
research's knowledge-base sphere, and educates the general public about 
the many uses and benefits emanating from food and plant science.
    Transforming our work from laboratories to practical on-site 
demonstrations, you prove that quality Extension works in tandem with 
quality research. This confirms the complimentary companionship 
Extension and research will continue having among all land-grants and 
affiliated stakeholders. Smith-Lever programs taught by dedicated 
personnel--from 1862 and 1890 colleges to 1994 Tribal institutions--
offer practical knowledge translating science into action and 
production into profits.
    So congratulations and take a bow Smith-Lever. ASHS wishes you all 
the best. For those in the land-grant community, and in other research 
fields across our land, this observance marks a singular moment. Yet it 
also celebrates successful models of cooperative partnerships between 
government, academia, and private industry--partnerships that will 
continue for the well-being and enrichment of all Americans. On this 
occasion. we blow out the candles for your first 100, and relight them 
for a bright and productive future ahead.

                                  <all>

</pre></body></html>
